<html>
<title> - NOMINATION OF RICHARD A. SERINO</title>
<body><pre>[Senate Hearing 111-454]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-454
 
                    NOMINATION OF RICHARD A. SERINO

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

  NOMINATION OF RICHARD A. SERINO TO BE DEPUTY ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

                           SEPTEMBER 16, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
53-839                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK PRYOR, Arkansas                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
                       Mary Beth Schultz, Counsel
               Kristine V. Lam, Professional Staff Member
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
          Adam J. Killian, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
Prepared statements:
    Senator Lieberman............................................    17
    Senator Collins..............................................    19

                               WITNESSES
                     Wednesday, September 16, 2009

Hon. John F. Kerry, a U.S. Senator from the State of 
  Massachusetts..................................................     1
Richard A. Serino to be Deputy Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     5

                     Alphabetical List of Witnesses

Kerry, Hon. John F.:
    Testimony....................................................     1
Serino, Richard A.:
    Testimony....................................................     5
    Prepared statement...........................................    21
    Biographical and financial information.......................    24
    Responses to pre-hearing questions...........................    38
    Letter from the Office of Government Ethics..................    88
    Responses to post-hearing questions..........................    89
    Letters of support...........................................    98


                    NOMINATION OF RICHARD A. SERINO

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:04 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Landrieu, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good afternoon and welcome to this 
hearing on the nomination of Richard Serino to be the Deputy 
Administrator at the Federal Emergency Management Agency 
(FEMA).
    I am glad to see our colleague, Senator John Kerry, here. 
And though I note, Senator Kerry, that you probably would love 
to hear the opening statements that Senator Collins and I have, 
I also know that you are on a busy schedule, so we welcome your 
introduction first.

TESTIMONY OF HON. JOHN F. KERRY, A U.S. SENATOR FROM THE STATE 
                        OF MASSACHUSETTS

    Senator Kerry. Well, that is very generous of you, Mr. 
Chairman. I appreciate it. You will make sure you send me the 
opening statements.
    Chairman Lieberman. I will. [Laughter.]
    Senator Kerry. Chairman Lieberman and Senator Collins, 
thank you very much for the opportunity to be able to introduce 
a terrific son of Massachusetts. Richard Serino is a 55-year-
old guy who has been at this for a long time, but he still 
calls himself a kid from Dorchester. A lot of people there are 
proud of him because of his many accomplishments throughout his 
career.
    He is sort of the pride of Massachusetts, in a sense, in 
the way in which he has approached his job. I think President 
Obama could not have made a better choice than to choose him to 
be the Deputy Administrator of the Federal Emergency Management 
Agency.
    I do know that the call from the White House came as a bit 
of a surprise to him. They asked him if he was interested in 
the No. 2 job at FEMA, and he said he would like to talk to a 
few people about it before deciding. And then he was still 
talking to folks about the job when the White House called back 
and said, it is yours if you want it. I think he may have been 
surprised by the call, but those who know something about his 
work were not surprised at all, and he has met with a 
remarkable array of compliments and of support from across the 
spectrum, from police chiefs, fire chiefs, the Mayor of Boston, 
and everyone who has come in contact with him.
    He has worked for the Boston Medical Services for 35 years. 
He began as a paramedic, rising to Superintendent in Chief, 
Superintendent for Field Operations, and for the past years, 
Chief of Boston EMS. He is chief of a department, Mr. Chairman 
and Senator Collins, that handles 100,000 medical calls a year, 
coordinates safety for massive events like the Boston Marathon, 
and the enormous celebrations we have had after the Super Bowl 
and World Series. We obviously now have to find a replacement 
to manage those celebrations since we anticipate more of those, 
don't we, Mr. Serino?
    Mr. Serino. Yes, we do.
    Senator Kerry. He has been responsible for disaster 
preparedness, and he literally helped to write the book on how 
to respond to terrorism as one of the authors of a book called, 
``In a Moment's Notice: Surge Capacity for Terrorist 
Bombings,'' a blueprint for other major cities developing 
disaster response.
    He served as a guest lecturer on homeland security and 
emergency preparedness at Harvard University, at Boston 
University, as a national faculty member for the Domestic 
Preparedness Program at the U.S. Department of Defense. He has 
also participated in senior leadership programs in national 
preparedness and homeland security at the Kennedy School of 
Government and at the Naval Post-Graduate School Center for 
Homeland Defense and Security.
    Mr. Chairman, let me just share with you how he tests some 
of his disaster preparedness. Rather than just running the 
drills, as many choose to do, on an average day in a city, 
which would make the drills difficult enough, he chooses to run 
disaster plans during the major events in Boston, like the 
Marathon or the Fourth of July celebration. That is the kind of 
thinking that can make a difference when a disaster actually 
does occur.
    As Deputy Administrator of FEMA, Mr. Serino will be 
involved in building, sustaining, and improving the 
Department's capacity to prepare for, protect against, and 
respond to and recover from all types of disasters. The only 
challenge the folks at FEMA may have with him, I think, is 
possibly the same one we have had in Boston as Chief of the 
EMS. That challenge will be keeping him out of the ambulances, 
Mr. Chairman. Once a paramedic, always a paramedic.
    But he is grassroots. He understands the challenges, and I 
think President Obama could not have made a better choice for 
FEMA. I have worked with FEMA for many years, as you both have. 
We know how it takes somebody who really understands what it is 
like to be on the ground and be a part of the local community, 
if you will, and who thinks the way that he does.
    I congratulate the kid from Dorchester in this nomination, 
and I think FEMA is going to do well with his stewardship. 
Thanks.
    Chairman Lieberman. Thanks, Senator Kerry. That was really 
a very excellent, thoughtful, and obviously personally felt 
statement, which is important for the Committee to hear. I 
thank you for your time.
    Senator Kerry. It is my pleasure to be here. I know his 
wife and kids are here, and I know they share that thought.
    Chairman Lieberman. It looks like a big crowd behind the 
Chief here.
    Senator Kerry. Absolutely.
    Chairman Lieberman. Chief Serino, I appreciate your 
presence here. I have just been informed that there are a 
couple of votes in the Senate around 2:30 p.m. I am going to 
have a little time after that, but I will see if we can go 
through this and allow us to complete the hearing so we don't 
have to hold you over and bring you back.
    I am going to put my statement in the record as if I had 
read it and just say, echoing what John Kerry has said, that 
you have an extraordinary record.\1\ It seems to me that you 
are a great complement to Craig Fugate in his role as 
administrator, not just north-south, but to a certain extent, 
his experience has quite naturally been in dealing with natural 
disasters, particularly hurricanes that hit Florida. I don't 
mean that is his only experience, but it is a primary one, and 
that is very important to us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lieberman appears in the 
Appendix on page 17.
---------------------------------------------------------------------------
    Your involvement in a big urban metropolitan area has not 
only given you that experience, particularly with, for 
instance, medical emergencies, but the kind of extra dimension 
of responsibility to which Senator Kerry testified about being 
ready in the case of an unnatural disaster, which is to say a 
terrorist attack. I am really grateful that you have accepted 
this.
    Senator Collins and I, our Committee, have had a 
longstanding interest in FEMA. We did, with Senator Landrieu's 
very active support, for obvious reasons, a very intensive 
investigation of FEMA post-Katrina, produced legislation, which 
was enacted, which we feel has really put this agency into a 
position to give us the kind of preparedness and response that 
we really need.
    So that is all I have to say at this point, and I will 
yield to Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. I am going to 
follow your lead, given the upcoming votes, and put my 
statement in the record, as well.\2\ I hope that is not the 
first of the upcoming votes.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator Collins appears in the 
Appendix on page 19.
---------------------------------------------------------------------------
    I just wanted to make one point, and that is during the 
government's failed response to Hurricane Katrina, there was no 
deputy leader at FEMA. There was no Deputy FEMA Director, and 
that was a major problem as we looked at the flaws in 
organization as well as in the delivery of the response. So the 
position that you have been nominated to fill was created by 
the Post-Katrina Emergency Management Reform Act, which we 
authored, and it was specifically to ensure better management 
and day-to-day direction of the agency. So this is an important 
position. We know that well because we created it.
    I am going to put my statement in the record so that we can 
get to questions before the votes. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Let me say for the record that Chief Serino has filed 
responses to a biographical and financial questionnaire, 
answered pre-hearing questions submitted by the Committee, and 
had his financial statements reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the hearing record, with the exception of the 
financial data, which are on file and available for public 
inspection in the Committee's offices.
    Chief, as you know, our rules require that all witnesses at 
nomination hearings give their testimony under oath, so I would 
ask you to please stand and raise your right hand.
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Serino. I do.
    Chairman Lieberman. I thank you. Please be seated, and you 
are welcome now to proceed with your statement, including the 
introduction of family and friends who are here, so long as it 
doesn't take us past 2:30 p.m. [Laughter.]
    Mr. Serino. Well, thank you, Mr. Chairman, Senator Collins.
    I would like to introduce my wife, Doreen, who has given me 
the opportunity to embark on this challenge, and I appreciate 
that. There was only one condition, Senator Collins, and that 
is that we can go to Christmas Prelude in Kennebunkport in 
December, that we do every year.
    Senator Collins. She is a wise woman. [Laughter.]
    Mr. Serino. And next to her is my son, Bryan, who came. He 
is Assistant District Attorney in Manhattan and a graduate of 
Connecticut College.
    Chairman Lieberman. Great.
    Senator Collins. He is covering all the bases. [Laughter.]
    Chairman Lieberman. This is a good move on the Chief's part 
because we agreed that I wouldn't ask a question about the 
Yankees or the Red Sox. [Laughter.]
    Mr. Serino. And also, my son Peter, who is a high school 
history and psychology teacher in Massachusetts, is here. And 
unfortunately, my daughter, who is a high school English 
teacher, Chairman of the English Department at a high school in 
Honolulu, couldn't be here today.
    Chairman Lieberman. Understood. Thank you.
    Mr. Serino. Also, I just wanted to recognize a couple of 
people who made the trip from Boston today. President of the 
Boston Police Patrolmen's Association, EMS Division Union, 
Jamie Orsino, and Vice President Bobby Morley, who is also our 
President of the National EMS Alliance, Superintendent Brendan 
Kearney, and Deputy Superintendent Shea, as well as a host of 
first responders and people from the emergency management 
community are here to support me, and I truly appreciate that. 
So thank you.
    Chairman Lieberman. Thanks, Chief, and thanks to them for 
taking the time to be here.
    You don't know this, but in the back, I have spotted Craig 
Fugate, Administrator of FEMA, who is here to perhaps see how 
you do. [Laughter.]

TESTIMONY OF RICHARD A. SERINO \1\ TO BE DEPUTY ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Serino. Well, good afternoon, Mr. Chairman, Ranking 
Member Collins, and Members of the Committee. My name is 
Richard Serino. I am grateful to Senator Kerry for his warm 
introduction and for his years of strong support of the 
emergency responders in Boston, throughout Massachusetts, and 
indeed across the country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Serino appears in the Appendix on 
page 21.
---------------------------------------------------------------------------
    I am privileged to appear here before you today as 
President Obama's nominee for the Deputy Administrator at FEMA. 
I am honored to have the opportunity to answer your questions 
as you consider my nomination. If confirmed, I look forward to 
working closely with the Committee, with Congress, to ensure 
that FEMA performs at the highest possible level in supporting 
our first responders and our citizens in this ongoing national 
effort to protect against, respond to, and recover from all 
hazards.
    I began my career, as you heard, over 35 years ago as a 
volunteer on an ambulance squad, and during that time, I rose 
through the ranks to my current position as Chief of Boston 
EMS. During my tenure as Chief, the paramedics and EMTs have 
been nationally recognized for the quality of care that they 
provide, and it truly has been my great privilege and honor to 
lead such a dedicated, hard-working, humble, and accomplished 
cadre of first responders.
    FEMA's mission is critical to our Nation's security and 
resilience. Your leadership and the work of this Committee 
specifically on the Post-Katrina Emergency Management Reform 
Act and other congressional initiatives have provided FEMA with 
truly a much-needed compass to ensure that the agency can 
succeed and bring a more common-sense approach to emergency 
management in the 21st Century, and I thank you for that.
    I believe I can assist Secretary Janet Napolitano and 
Administrator Craig Fugate in aligning FEMA's personnel and 
resources to support our citizens and the first responders so 
that as a Nation we may work together to collaboratively 
rebuild, sustain, and improve preparedness, protection, 
response, and recovery capabilities. My operational experience 
as a first responder and the leadership roles I have assumed 
over the past decades have given me the tools needed to 
successfully bridge the gap between the Federal, State, local, 
and non-government officials who must work together.
    As a senior leader in metro Boston's community of emergency 
response officials, I facilitated preparedness, response and 
recovery efforts, and worked to forge strong partnerships, not 
just with the EMS, fire service, law enforcement, and emergency 
management, but also with public health, volunteer 
organizations, and business leaders throughout the Commonwealth 
and throughout Boston.
    A primary theme across all of my emergency preparedness 
efforts has been a dedication to building partnerships, whether 
they are in the businesses, faith-based communities, 
universities, academia, or government departments. In my own 
experience, these strong partnerships have time and time again 
resulted in enhanced efficiency, communications, coordination, 
response, and recovery efforts.
    Federal, State, and local emergency response officials must 
continue to reach out to build stronger relationships with each 
other to ensure a properly functioning national system of 
public safety and public health. These officials routinely 
collaborate in Boston to prepare for high-threat, large-scale 
events, unfortunately, such as the recent events honoring 
Senator Kennedy that we were able to pull together.
    I have led emergency medical planning and operations for a 
number of high-threat events that the Senator has mentioned, 
including the 2004 Democratic National Convention, which was a 
national special security event. I know firsthand the type of 
collaboration that ensures our collective preparedness. Each 
time we all work together, Federal, State, and local, we 
execute an operational plan for a high-threat event, increasing 
our chances of full operational success should we be confronted 
with a major incident.
    In addition to serving as Chief of Boston EMS, I also 
currently serve as the Assistant Director of the Boston Public 
Health Commission, where I oversee public health preparedness 
policy and programs, including city-wide preparedness efforts 
on H1N1 as well as the DelValle Institute for Emergency 
Preparedness. I have led efforts to prepare Boston's responders 
to address the consequences of chemical, biological, and 
radiological incidents. During my tenure, we have dramatically 
expanded weapons of mass destruction (WMD) detection equipment 
and training, as well as provided responders with critical 
personal protective equipment and interoperable communications 
equipment.
    The vast majority of these new capabilities have come as a 
result of crucial Homeland Security grant programs that FEMA 
manages and Congress authorizes and funds. I have seen 
firsthand the importance of these programs. They prepare our 
responders for the threats our Nation faces.
    In addition to my work in Boston, I have lectured on topics 
in public health preparedness across the country. Like 
Secretary Napolitano and Administrator Fugate, I understand the 
challenges that State and local officials face, and if 
confirmed, I am committed to strengthening partnerships amongst 
government officials at all levels, as well as with members of 
the business community and non-governmental organizations.
    I am committed to galvanizing the dedicated professionals 
that make up the FEMA workforce. We must continue to build 
morale and recognize the contribution that the employees make 
to our Nation's preparedness while ensuring they have the 
training, support, and resources that they need to deliver on 
FEMA's commitment to our citizens and our first responders.
    If confirmed, I will also work with Secretary Napolitano 
and Administrator Fugate to ensure that Gulf Coast recovery 
remains a top priority at FEMA and DHS. The Secretary and 
Administrator have visited New Orleans and announced detailed 
additional funding obligated to the State of Louisiana for 
ongoing efforts. Since January 20 this year, over $1 billion in 
additional public assistance funding has been provided to 
rebuild the public infrastructure across the State of 
Louisiana.
    In closing, I am anxious to bring the more than 35 years of 
experience that I have to FEMA. If confirmed, I look forward to 
working hand in hand with Administrator Fugate, the entire FEMA 
team, and our partners here in Congress to help strengthen the 
agency's ability to respond to all hazards, to expand its 
partnerships with first responders, and to build relationships 
and teamwork that is needed for the threats that our Nation 
faces.
    I thank you, Mr. Chairman, Senator Collins, and Members of 
the Committee, for the opportunity to appear before you and 
look forward to answering your questions.
    Chairman Lieberman. Thanks very much for that excellent 
statement, Chief.
    I am going to begin by asking you the three questions that 
we ask all nominees. First, is there anything you are aware of 
in your background that might present a conflict of interest 
with the duties of the office to which you have been nominated?
    Mr. Serino. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Serino. No.
    Chairman Lieberman. And third, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Serino. Yes.
    Chairman Lieberman. Thank you. You are doing really well so 
far, Chief. [Laughter.]
    Chairman Lieberman. We are going to do a 7-minute round for 
each of us.
    Let me ask you first about a public health crisis--I hate 
to use the word ``crisis,''--but it is an emergency that we are 
in the midst of with regard to H1N1 flu. Let me ask you to 
reflect on the work you have been doing. As you know, the 
Department of Homeland Security is actually the incident 
manager for the Federal Government in a situation of this kind. 
I wanted to ask you if there are any lessons that you have 
learned from the work you have been doing to prepare the 
greater Boston area for the flu that would be relevant and 
useful to FEMA nationally and to other communities as they try 
to prepare for it.
    Mr. Serino. With the outbreak this past spring in Boston, 
we were significantly hit with the flu in the City of Boston. 
We had over 23,000 cases of H1N1 flu within the City of Boston, 
and 11 percent of the student population, age five to 17, also 
came down with H1N1.
    Chairman Lieberman. Those are much higher numbers than I 
was aware of.
    Mr. Serino. Right. Boston was one of the more significant 
places that was hit. And one thing that we learned from this 
outbreak is that we have to do this together. We learned some 
lessons during the spring, but over the summer, we did a lot of 
outreach. We reached out to all of our partners, to the 
business community, faith-based organizations, the unions, and 
other governmental agencies. We worked with the schools, the 
colleges, and the universities throughout the area to actually 
put some plans in place, to actually work with them to develop 
things that made sense for them because one thing that we found 
early is that getting the right information out to the people 
early on was extremely important.
    We developed a medical intelligence center--it is called 
the Lawlor Medical Intelligence Center--with different Homeland 
Security and Center for Disease Control and Prevention (CDC) 
funding, and that is a place where we are able to bring people 
together from across all the different disciplines to share the 
information in a medical setting. That worked out very well. We 
have weekly briefings that bring together people from across 
the business community, voluntary organizations, the Red Cross, 
and also Federal organizations, specifically the FBI, to share 
information.
    We found it is very important to have all the players at 
the table. One of the stories is that we had a couple of police 
deputy superintendents in the room as we were discussing this 
and wanted to know how we could reach out to people, and they 
came up with the idea, what about using crime watch groups, 
another avenue to reach out to people. So I think the more 
groups that you get together, the more ideas you get and the 
more ways you are going to share the information.
    Educating the public, I think, is absolutely crucial. The 
simple things, like telling people if you have a cough, cover 
it. If you have hands, wash them. Simple things like that, we 
have the messaging. So I think it is a multi-prong approach 
that you need to do.
    And one of the things that, if confirmed, I can bring to 
this position is the relationship that I have with people both 
at CDC in Atlanta and at HHS, people who I have been working 
with for many years, people I have published articles with and 
who are now in other positions that we are going to be able to 
work together with and continue to bridge the gap between the 
health community and the emergency response community, as well.
    Chairman Lieberman. Thanks. Let me go to a related but 
slightly different question. I am impressed by the writing that 
you have done on what we all ought to be doing, including at 
the local level, to prepare to respond to a chemical or 
biological attack. We have heard testimony in this Committee, 
and Senator Collins and I have just introduced legislation to 
attempt to prevent a biological attack because the feeling is 
growing increasingly here that, of the various forms of weapons 
of mass destruction attack, it is probably the most likely 
because of the ease of moving biological material into a public 
place.
    I just wanted to ask you to spend a couple of moments and 
reflect from the position you had on what you take to be the 
state of preparedness of our public health system, our 
emergency medical system, in the words of the article, I 
gather, to surge in the case of what we hope never happens but 
we have to prepare for.
    Mr. Serino. One of the things that we have been able to do 
over the last number of years is bring together, again, a large 
group of people across the different disciplines, and we worked 
specifically with the hospitals to ensure that they were able 
to deal with the surge capabilities and things that they could 
do within their hospital and also within the community.
    And one thing that we also did was work with the community 
health centers. In Boston, for example, there are 26 community 
health centers that see a large population of patients. And 
what we want to do is ensure that they are part of the system 
and able to handle any sort of problems that may come if there 
is a surge because there isn't going to be one hospital that is 
going to be able to handle it on its own. There isn't going to 
be one system. So you are going to have to actually work across 
many different lines to bring lots of different people 
together.
    And also, in a certain incidence, you have to look at other 
policies that you may have to put into effect. For example, in 
EMS and pre-hospital care, you may actually have a different 
standard of care, and you should work through the regulatory 
issues ahead of time in case we need to step back and say 
rather than having two EMTs or two paramedics in an ambulance, 
maybe you are only going to be able to have one and you may be 
able to do something a bit different. One small example is 
where you could deal with it. And also looking at different 
places to take care of large numbers of patients.
    And also, as we are seeing now specifically with H1N1, 
another example is encouraging people to determine certain 
times for who has to go to the hospital and who can actually be 
taken care of at home. We have done a lot with H1N1, and it 
actually can be applicable to biological incidents, as well, so 
you can be prepared to take care of people at home and not put 
as much of a stress on the system.
    So it is a multi-prong approach. There isn't just one way 
to address this. You have to do it in many different areas. And 
as we prepare for biological incidents, actually, preparing for 
H1N1 is going to help us as we learn across other areas, as 
well.
    Chairman Lieberman. Yes, well said. I appreciate the 
answer, and I hope that, if confirmed, and I certainly hope and 
believe you will be, that you will be able to be proactive, 
both within FEMA and with your colleagues in DHS, to push this 
level of preparedness that you have strived for in Boston 
throughout the country, particularly throughout the major 
metropolitan areas, because my own impression is that we are 
not fully prepared. It is tough to be fully prepared, but we 
have a lot of work to do to develop that surge capacity. I 
thank you.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Chief, I am very encouraged to hear you talk about the need 
for strengthening collaboration with all your partners. That 
was so missing in the response to Hurricane Katrina. There was 
not that kind of collaboration. There hadn't been joint 
exercises. And the people of the region paid a real price 
because of the lack of collaboration and previous training.
    I have seen FEMA really improve in this area. I have 
attended joint exercises in New England and have seen State, 
local, Federal, county, emergency management, first responders, 
everybody gathering together, and that is exactly what we need.
    But another area where FEMA needs to improve its State and 
local outreach has to do with FEMA's ongoing initiative to 
modernize flood maps. Now, I completely support FEMA's efforts 
to use the latest technology, to gather better data, and to 
produce more accurate maps. These new maps are designed to more 
accurately portray flooding risks. But FEMA must do a better 
job of working collaboratively with State and local officials 
who are in the best position to know their community strengths, 
the vulnerabilities, and what the impact is going to be.
    Contentious litigation-style appeals are no substitute for 
the cooperation that FEMA should be fostering with State and 
local officials in the first place. As an example, FEMA is now 
revising the flood map for portions of the State of Maine, 
including that of its largest city, Portland, Maine. And FEMA 
and Portland officials disagree on the accuracy of these new 
maps. It has been extremely frustrating to try to get FEMA to 
sit down and work with local officials and try to go through 
these issues.
    I am now hopeful that FEMA is going to propose a more 
cooperative approach for dealing with this particular case, but 
my point to you would be that Portland's complaints are not 
unique. They are not even unusual. And in fact, I remember 
Senator Landrieu bringing up the issues of the impact of 
designating an area as a V-zone many times. It has a huge 
impact on local economic development.
    So that is a long introduction, but the problem is a very 
real one. If you are confirmed, will you commit to establishing 
a more collaborative process when FEMA is updating its flood 
maps?
    Mr. Serino. The short answer to that is yes. I think that 
you hit on some very important points and things that I have 
believed for many years. There was a gentleman who was a member 
of the House from Massachusetts, a number of years ago, who had 
a saying, ``All politics are local,'' a gentleman by the name 
of Tip O'Neill.
    Senator Collins. Tip O'Neill.
    Mr. Serino. Not only are all politics local, all disasters 
are local, as well, and I think that is important, and you have 
my commitment because I firmly believe that it is important to 
deal with the locals, it is important to build those 
relationships at the regional level, at the State level, and at 
the local level, and to do that on a consistent basis because 
when a disaster happens, those are the first people to be 
there, and then later on, after everything else is over with, 
the locals are still going to be there when everybody else has 
gone home.
    Senator Collins. Absolutely.
    Mr. Serino. And I have been in that position. I understand 
that position. And FEMA is there to support, as Administrator 
Fugate has said, we are there to support, not supplant, the 
locals. One of the functions I see is to really continue to 
build those relationships across the country with the States 
and the locals.
    Senator Collins. Thank you for that commitment because that 
is absolutely key. These are our partners, not our adversaries.
    You have been the Chief of a Boston EMS Department that 
represents one of the few major metropolitan EMS departments 
that is not affiliated with the local fire department, and that 
is unusual. You have historically been a strong proponent of 
keeping EMS systems separate from the fire service. Yet fire 
service-based EMSs currently serve 67 percent of the American 
population and provide more than 90 percent of the emergency 
medical service to jurisdictions with populations of more than 
50,000 people.
    Since your background is not typical, then, of what we see 
in most parts of the country, and since you have been a 
proponent of keeping them separated, I am asking for your 
assurance that you will recognize the importance of the fire 
department-based EMS and that you will be impartial as far as 
supporting both models.
    Mr. Serino. I have been a proponent of EMS for many years, 
and I have said many times that I believe that the decision on 
how EMS is provided is a local issue, as we just discussed. 
There is not one set way to provide EMS across the country. It 
is going to be provided best in different cities by different 
agencies. The fire department has some great systems. The third 
service has some great systems. And that is a local issue.
    But the key part is to provide very good patient care 
quickly and effectively, in a timely manner. That is what is 
essential and to do that with the local input of the local 
government, and I have been a big proponent that it is a 
medically based system regardless of who is the provider, 
regardless of which patch you wear, and I am a supporter of 
EMS.
    Senator Collins. Great. Thank you.
    Chairman Lieberman. Thanks, Senator Collins.
    There is actually a quorum call, not a vote yet, so maybe 
we will do a couple more questions each.
    Looking at the statute about the role of the Deputy, it is 
interesting. One thing that we did do that we are pleased about 
is we put some statutory qualifications in for the 
Administrator. I note that we didn't put them in for the 
Deputy, but you more than satisfy whatever qualifications we 
would have put in.
    My point that I want to get to is that we also did not 
specifically spell out areas of responsibility for the Deputy. 
That in itself is not unusual. But I wanted to ask, to the 
extent that you may have discussed this with Administrator 
Fugate or you have ideas yourself, what your priorities and 
goals will be and whether Administrator Fugate and you have 
talked at all about specific areas of focus and priority that 
you will carry, if confirmed.
    Mr. Serino. If confirmed as the Deputy Administrator at 
FEMA, I would first be supporting certainly Secretary 
Napolitano and Administrator Fugate's priorities, and 
specifically two of those have been ensuring that we are ready 
to respond to the next disaster and supporting our first 
responders and citizens. And I believe those are the very two 
top priorities.
    In addition to that, we haven't discussed this 
specifically, but I see some areas where I have an opportunity 
to be supportive--one is around H1N1, which we discussed 
earlier, some of the experiences I have had with that, some of 
the relationships I have with people in the medical and the 
public health community and helping to bridge those gaps.
    Also, developing citizen preparedness and looking at how 
citizens become not just prepared, but more resilient in the 
community, where it is not just making sure that they have 
their supplies, which everyone should have, but going to the 
next step. If there is an elderly neighbor next door, checking 
on him. If there is a single parent with three kids on the 
other side, to check on them. So now if everybody were to do 
that, that helps build a resilient community where they are 
taking care of themselves and taking care of the others, as 
well. I think those are a couple of key areas.
    In addition to that, I am looking at, as I also mentioned 
briefly, developing relationships. One thing I am going to look 
at is visiting all the various regions throughout the country 
and spending time in the regions and getting to know the State 
directors, visiting some of the cities and some of the rural 
areas and really developing those relationships, how we can 
build a better team. This isn't going to be just about FEMA. 
This just isn't about local administrators. We have to do this 
together as a team.
    And one of the other priorities I see is looking at the 
workforce within FEMA. There are some very dedicated, 
wonderful, passionate people who work at FEMA, and I, if 
confirmed, really want to look at how we can encourage people 
to make FEMA a career. There are a lot of people who have been 
there who are passionate. There are a lot of younger people who 
are trying to get into FEMA, trying to get into the Homeland 
Security arena. And how can we mentor new people and partner 
them up with some people who are more experienced?
    I had the opportunity to talk with a fairly new employee. 
He didn't know who I was. We were sitting outside, grabbing 
something to eat, and I just talked to him and asked him why he 
got involved. And he said, ``I tried for 4 years to get to 
FEMA. I worked for a contractor. and I finally got in,'' and 
now he has been at FEMA for about a year, and he is thrilled to 
work here. He has his master's in homeland security. He is 
really, truly dedicated.
    But one thing that bothered me is, I said, ``Do you wear 
the FEMA shirt?'' He said, ``No, I stopped wearing that on the 
Metro as a contractor a while ago.'' One thing that I would 
really like to do is for people to be proud to wear the FEMA 
shirt and the FEMA jacket and the FEMA hat again. I think that 
is going to take a lot of work, but that, to me, is a priority 
because without having good people at FEMA, without giving them 
all the support, all the training and guidance, and all the 
work that goes into that, if we don't have good people and 
support and train them and recognize them when they do well, 
FEMA isn't going to be able to do its job the way it should.
    Chairman Lieberman. Well said. A final question. One of the 
aspects of the Post-Katrina Act that I think was most important 
was the establishment of 10 regional offices of FEMA. I would 
be interested in your overall reaction to the regional offices, 
if you have any anecdotal responses to your own experience with 
the regional office in your area, and any thoughts about what 
you might do to improve the capabilities of those regional 
offices.
    Mr. Serino. If confirmed, there are many things that I 
would do. First, in the Region I area, we actually have a good 
relationship. I worked with many of their staff for many years, 
whether it was with the Democratic National Convention, which 
was a national special security event, I worked closely with 
their staff. They were supportive.
    And I think that also as we continue to move forward, we 
should be actually pushing more to the regions. The regions 
know what is going to work in their region better than anybody 
else. A lot of things cannot be managed from Washington, DC. 
The regional directors, the staff in the regions know their 
regions. They should know and they will know all their State 
directors if they don't. They will know their governors. They 
will also know a number of the people in the local areas, and I 
want to continue to work with them and to really develop the 
regional administrators to actually be a key, integral part.
    Chairman Lieberman. Excellent. Thank you very much. Senator 
Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Chief, in your response to the questions that we submitted 
prior to this hearing, you indicated your belief that the FIRE 
Act grant program had been successful and efficiently run, and 
I certainly agree with you. I think this is an example of a 
program that has made a tremendous impact with a minimum of 
bureaucracy. It is peer reviewed. My fire departments in Maine 
love the program, and I gather that the Boston EMS, which you 
lead, has received FIRE Act grant funding in the past.
    Could you explain from your perspective on the EMS side why 
you think the program has been successful?
    Mr. Serino. The FIRE Act grant program for us has been 
successful. What has been successful about it is the fact that 
it is less bureaucratic than a lot of other programs, and we 
have applied many times. And even the times we didn't get our 
grant, we got a response quickly, and we got a response as to 
why, and that, to me, was just as important as when we did 
receive the grant. We were able to outfit, in fact, all of our 
staff with personal protective equipment through that grant, 
which we otherwise wouldn't have been able to do.
    So I think that grant is actually--I don't want to say it 
is simple, but it is user friendly, and the fact that it is 
peer-reviewed is helpful, as well.
    Senator Collins. I think it is a terrific program. The 
authorization is due to expire at the end of September. We are 
working on a reauthorization bill.
    I would note, and I am not going to ask you about this 
because I don't want to put you in a difficult position with 
the Administration that has just nominated you, that the 
President's budget, unfortunately, slashed the FIRE Act grant 
program below the funding level that we had in the previous 
year, and I think that was very unfortunate. I hope that you 
will be an advocate internally in the budget deliberations and 
that you can bring the personal experience that you have had to 
the budget deliberations. I doubt a lot of the people who are 
making the funding decisions have actually seen firsthand the 
tremendous good that the FIRE Act grants can do, so I hope that 
you will be that voice as the next budget is put together. And 
you don't have to answer that.
    Mr. Serino. Thank you. [Laughter.]
    Senator Collins. But I will assume from the twinkle in your 
eye that the answer is yes. [Laughter.]
    I want to follow up with just one final question, and that 
is about other grant programs within the Department. I think 
that FEMA's grant programs, the Homeland Security grant 
programs, have done a great deal of good. They have allowed 
countless areas throughout our country to build interoperable 
communication networks. That is of great interest to the 
Chairman and me because we saw not only in Hurricane Katrina, 
but in other disasters that have occurred that the lack of 
interoperable communications has worsened the disaster and 
impeded an effective response. But we have seen the funds go 
for that.
    We have seen the Homeland Security grant programs being 
used to develop detailed response plans that otherwise would 
not exist. They have been used to train thousands of first 
responders. I have seen in Maine the funds being used for 
Regional Emergency Operations Centers, for interoperable 
communications, hand-held radio devices, command and control 
vehicles, mobile vehicles that can be used in an emergency.
    Nevertheless, the experience with these programs is not 
perfect, and last Friday, the Sacramento Bee in California 
published a story that exposed wasteful expenditures by the 
State of California with money that it had received from DHS 
grant programs. In some cases, equipment that had been 
purchased was still in boxes years or a considerable time 
later.
    So it is imperative that FEMA have strict controls to 
ensure that the money is being used to achieve the baseline 
emergency preparedness that we all agree is necessary 
throughout the country, in big cities and small, and it is 
imperative that there be a way of auditing and checking to make 
sure that funds are not wasted.
    As Deputy Administrator, if confirmed, what specific 
actions would you take to ensure that these dollars are spent 
wisely and not wasted or lost to fraud?
    Mr. Serino. If confirmed, one of the things that I would do 
is commit to getting more specifics on that particular event. I 
have read the article. I am going to commit to getting back to 
you with more information as we work together with 
Administrator Fugate to look more in depth at this issue.
    Senator Collins. You can, indeed. I would suggest to you 
that working very closely with the Inspector General in your 
agency is one way forward. It is my understanding that the IG 
has published a report with some 21 recommendations that 
address many of the flaws and problems that are outlined in 
this news story. So that is a path forward for FEMA to 
implement. But fraud in FEMA programs has been a problem. We 
saw rampant fraud in the wake of Hurricane Katrina, sadly, but 
we also saw it in previous hurricanes, after the Florida 
hurricanes, as well.
    It is evident that FEMA needs better internal controls, 
that it needs a better system, and that we not let the urgency 
of responding cause a lapse of internal controls and the 
suspension of internal controls. That is a false choice. You 
can deliver the aid, whether it is emergency assistance in the 
wake of a disaster or a Homeland Security grant, in a timely 
fashion without making the programs vulnerable to waste, fraud, 
and abuse.
    Mr. Serino. And if confirmed, I will make a commitment to 
working to ensure that the taxpayers' money is spent properly, 
wisely, and to avoid fraud, but at the same time meet the needs 
of the citizens when they need it the most.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    The vote has begun, but this timing worked out well. I 
think we had a really good discussion. I must say, I am very 
impressed by your answers. Beyond the record that we see in 
your biography of your experience, you are obviously familiar 
with all that you will be asked to do, if confirmed for this 
position.
    I certainly hope you are confirmed. I think, together with 
Administrator Fugate, you will constitute really a first-class 
team to head this agency, and you will do it in a way that will 
lead that employee to be proud to put on that T-shirt with FEMA 
on it.
    Without objection, the record of the hearing will be held 
open until the close of business tomorrow for the submission of 
any written questions or statements for the record. We will 
give them to you by then, tomorrow, and ask you to respond in 
writing to the questions.
    With that, I thank you very much for your willingness to 
serve your country. I thank your family for backing you up and 
doing that, and now I adjourn the hearing.
    Mr. Serino. Thank you.
    [Whereupon, at 2:50 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T3839.001

[GRAPHIC] [TIFF OMITTED] T3839.002

[GRAPHIC] [TIFF OMITTED] T3839.003

[GRAPHIC] [TIFF OMITTED] T3839.004

[GRAPHIC] [TIFF OMITTED] T3839.005

[GRAPHIC] [TIFF OMITTED] T3839.006

[GRAPHIC] [TIFF OMITTED] T3839.007

[GRAPHIC] [TIFF OMITTED] T3839.008

[GRAPHIC] [TIFF OMITTED] T3839.009

[GRAPHIC] [TIFF OMITTED] T3839.010

[GRAPHIC] [TIFF OMITTED] T3839.011

[GRAPHIC] [TIFF OMITTED] T3839.012

[GRAPHIC] [TIFF OMITTED] T3839.013

[GRAPHIC] [TIFF OMITTED] T3839.014

[GRAPHIC] [TIFF OMITTED] T3839.015

[GRAPHIC] [TIFF OMITTED] T3839.016

[GRAPHIC] [TIFF OMITTED] T3839.017

[GRAPHIC] [TIFF OMITTED] T3839.018

[GRAPHIC] [TIFF OMITTED] T3839.019

[GRAPHIC] [TIFF OMITTED] T3839.020

[GRAPHIC] [TIFF OMITTED] T3839.021

[GRAPHIC] [TIFF OMITTED] T3839.022

[GRAPHIC] [TIFF OMITTED] T3839.023

[GRAPHIC] [TIFF OMITTED] T3839.024

[GRAPHIC] [TIFF OMITTED] T3839.025

[GRAPHIC] [TIFF OMITTED] T3839.026

[GRAPHIC] [TIFF OMITTED] T3839.027

[GRAPHIC] [TIFF OMITTED] T3839.028

[GRAPHIC] [TIFF OMITTED] T3839.029

[GRAPHIC] [TIFF OMITTED] T3839.030

[GRAPHIC] [TIFF OMITTED] T3839.031

[GRAPHIC] [TIFF OMITTED] T3839.032

[GRAPHIC] [TIFF OMITTED] T3839.033

[GRAPHIC] [TIFF OMITTED] T3839.034

[GRAPHIC] [TIFF OMITTED] T3839.035

[GRAPHIC] [TIFF OMITTED] T3839.036

[GRAPHIC] [TIFF OMITTED] T3839.037

[GRAPHIC] [TIFF OMITTED] T3839.038

[GRAPHIC] [TIFF OMITTED] T3839.039

[GRAPHIC] [TIFF OMITTED] T3839.040

[GRAPHIC] [TIFF OMITTED] T3839.041

[GRAPHIC] [TIFF OMITTED] T3839.042

[GRAPHIC] [TIFF OMITTED] T3839.043

[GRAPHIC] [TIFF OMITTED] T3839.044

[GRAPHIC] [TIFF OMITTED] T3839.045

[GRAPHIC] [TIFF OMITTED] T3839.046

[GRAPHIC] [TIFF OMITTED] T3839.047

[GRAPHIC] [TIFF OMITTED] T3839.048

[GRAPHIC] [TIFF OMITTED] T3839.049

[GRAPHIC] [TIFF OMITTED] T3839.050

[GRAPHIC] [TIFF OMITTED] T3839.051

[GRAPHIC] [TIFF OMITTED] T3839.052

[GRAPHIC] [TIFF OMITTED] T3839.053

[GRAPHIC] [TIFF OMITTED] T3839.054

[GRAPHIC] [TIFF OMITTED] T3839.055

[GRAPHIC] [TIFF OMITTED] T3839.056

[GRAPHIC] [TIFF OMITTED] T3839.057

[GRAPHIC] [TIFF OMITTED] T3839.058

[GRAPHIC] [TIFF OMITTED] T3839.059

[GRAPHIC] [TIFF OMITTED] T3839.060

[GRAPHIC] [TIFF OMITTED] T3839.061

[GRAPHIC] [TIFF OMITTED] T3839.062

[GRAPHIC] [TIFF OMITTED] T3839.063

[GRAPHIC] [TIFF OMITTED] T3839.064

[GRAPHIC] [TIFF OMITTED] T3839.065

[GRAPHIC] [TIFF OMITTED] T3839.066

[GRAPHIC] [TIFF OMITTED] T3839.067

[GRAPHIC] [TIFF OMITTED] T3839.068

[GRAPHIC] [TIFF OMITTED] T3839.069

[GRAPHIC] [TIFF OMITTED] T3839.070

[GRAPHIC] [TIFF OMITTED] T3839.071

[GRAPHIC] [TIFF OMITTED] T3839.072

[GRAPHIC] [TIFF OMITTED] T3839.073

[GRAPHIC] [TIFF OMITTED] T3839.074

[GRAPHIC] [TIFF OMITTED] T3839.075

[GRAPHIC] [TIFF OMITTED] T3839.076

[GRAPHIC] [TIFF OMITTED] T3839.077

[GRAPHIC] [TIFF OMITTED] T3839.078

[GRAPHIC] [TIFF OMITTED] T3839.079

[GRAPHIC] [TIFF OMITTED] T3839.080

[GRAPHIC] [TIFF OMITTED] T3839.081

[GRAPHIC] [TIFF OMITTED] T3839.082

[GRAPHIC] [TIFF OMITTED] T3839.083

[GRAPHIC] [TIFF OMITTED] T3839.084

[GRAPHIC] [TIFF OMITTED] T3839.085

[GRAPHIC] [TIFF OMITTED] T3839.086

[GRAPHIC] [TIFF OMITTED] T3839.087

[GRAPHIC] [TIFF OMITTED] T3839.088

[GRAPHIC] [TIFF OMITTED] T3839.089

[GRAPHIC] [TIFF OMITTED] T3839.090

[GRAPHIC] [TIFF OMITTED] T3839.091

[GRAPHIC] [TIFF OMITTED] T3839.092

[GRAPHIC] [TIFF OMITTED] T3839.093

[GRAPHIC] [TIFF OMITTED] T3839.094

[GRAPHIC] [TIFF OMITTED] T3839.095

[GRAPHIC] [TIFF OMITTED] T3839.096

[GRAPHIC] [TIFF OMITTED] T3839.097

[GRAPHIC] [TIFF OMITTED] T3839.098

[GRAPHIC] [TIFF OMITTED] T3839.099

[GRAPHIC] [TIFF OMITTED] T3839.100

[GRAPHIC] [TIFF OMITTED] T3839.101

[GRAPHIC] [TIFF OMITTED] T3839.102

[GRAPHIC] [TIFF OMITTED] T3839.103

[GRAPHIC] [TIFF OMITTED] T3839.104

[GRAPHIC] [TIFF OMITTED] T3839.105

[GRAPHIC] [TIFF OMITTED] T3839.106

[GRAPHIC] [TIFF OMITTED] T3839.107

[GRAPHIC] [TIFF OMITTED] T3839.108

                                 <all>

</pre></body></html>
